C'OCKLE
2311 Douglas Street

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-438
CLEMENTE AVELINO PEREIDA,
Petitioner,
v.

WILLIAM P. BARR, ATTORNEY GENERAL
OF THE UNITED STATES,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF IMMIGRATION
LAW PROFESSORS AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief

contains 5967 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as
needed.

Subscribed and sworn to before me this 4th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska Cb Qudraw he
My Commission Expires Nov 24, 2020 € =

Notary Public Affiant 39380

 
